HHS/OIG-Audit--"Operation Restore Trust Review of Victoria Behavioral Health Services Community Mental Health Center, Provider No. 10-4724, Miami, Florida, (A-04-97-02136)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Review of Victoria Behavioral Health Services Community Mental Health Center, Provider
No. 10-4724, Miami, Florida," (A-04-97-02136)
January 30, 1998
Complete
Text of Report is available in PDF format (1.27 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Victoria Behavioral Health Services, a Community Mental Health Center located in Miami, Florida, received reimbursement
for partial hospitalization services provided to Medicare beneficiaries. The audit showed that the center did not meet
the certification requirements established under Sections 1916(c)94) of the Public Health Service Act and 1861 of the Social
Security Act. Further, we found that none of the 20 medicare beneficiaries in our sample were eligible for partial hospitalization
benefits and that $1,196,664 of the $1,959,296 paid for services provided to the 20 beneficiaries in our sample were unnecessary,
unreasonable and unallowable under Medicare coverage and reimbursement criteria. We also found that the center claimed
reimbursement for unreasonable and unallowable administrative costs, including related party costs that had not been properly
disclosed.
Based on the audit, we recommended that the entire $4,510,161 paid to the center during their participation in the Medicare
program be disallowed. Medicare payments to the center were suspended with notice and the findings were referred for possible
criminal prosecution.